                                                            nit      d . . tal   s   D .piJftmcnt of, late
                                                          anu the Broadcasti Ilty Board              r Governor '
                                                          OfJi('(~   olin pPClor Getu>raL



                                                               SEP 19 2012



MEMORANDUM

TO: 	          M/PRI- Susan Curley, Acting

FROM: 	        OIG - Harold W. Geisel    /f::f1f2t
SUBJECT: 	     Support for Department Employees Serving in Afghanistan, Iraq, and Pakistan
               (ISP-I-12-49)


Executive Summary

        On April 27, 2012, the Bureau of Human Resources briefed the Office ofInspector
General team on issues concerning families of employees serving in Afghanistan, Iraq , and
Pakistan (AlP). In the course of analyzing those issues, OIG inspectors noted two areas for
improvement for the program: there are no guidelines directed to post management on standard
post support responsibilities to safe-havened families and guidance for AlP bidders and their
families is excellent, but is not easily available to potential bidders early enough in the bid
process. This memorandum report recommends that clear guidelines be disseminated to post
management on support for AlP families and that information provided to potential AlP bidders
and their families be sent earlier in the bidding process.

Summary of Findings

        On a recent inspection trip, inspectors observed dissimilar treatment of AlP families at
different posts. One embassy offered excellent support, and the result was several volunteers for
AlP posts in the last bidding cycle. By contrast, one Ambassador openly opposed families of AlP
volunteers staying at post. Only when the Bureau of Human Resources and the Under Secretary
for Management provided direct instructions to the Ambassador did he relent, although he
insisted for a while that the families move to a designated compound. The episode highlighted
the lack of clear guidance on standard mission support for safe-havened families and the
resulting possibility for inequitable treatment. Although there are recommended guidelines on
hosting safe-havened families, there are no instructions directed to post management on
Department expectations.

Recommendation 1: The Office of the Under Secretary for Management, in coordination with
the Bureau of Near Eastern Affairs and South and Central Asian Affairs, should publish an
annual worldwide cable, prior to the Afghanistan, Iraq, and Pakistan bid season, strongly
encouraging missions to support potential bidders and referencing existing guidance on
                                                1
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED 


Department expectations of post support, including information on reimbursement to post for
services rendered to families of successful bidders. (Action: M/PRI, in coordination with NEA
and SCA)

         The excellent guidance on AlP assignments would be more useful to potential bidders if
summary information were distributed earlier in the process. The Human Resources Decision
Tree for employees and their families (attached) states that the l2-month temporary duty option
must be negotiated on a case-by-case basis, and that the employee should contact the post and
the bureau. The letter from the Bureau of Human Resources to clients on finalizing an
Afghanistan assignment states that "while the Department will strive to accommodate your
preferences, it will remain up to the Department to choose whether to send you PCS or TOY." A
sample decision memorandum for the deputy chief of mission at post (attached) asks whether the
host government will object to the family remaining at post; grant the family derivative
diplomatic status; allow double-encumbering of the position; and support the logistical
requirements of the family remaining at post. However, the memorandum raises these questions
for employees who have already accepted a handshake for a position in an AlP country, which is
late in the assignment process. Making comprehensive information available to potential AlP
bidders prior to the AlP bid season will allow employees to thoroughly research and weigh their
options earlier. Empowering employees to form realistic expectations with regard to their status
and that of their families will further incentivize volunteers for AlP posts.

Recommendation 2: The Bureau of Human Resources, in coordination with the Bureau of Near
Eastern Affairs and South and Central Asian Affairs, should publish an annual cable prior to the
Afghanistan, Iraq, and Pakistan bid season that informs employees of all options that will allow
the employee to better plan before actually bidding on an Afghanistan, Iraq, and Pakistan post.
(Action: DGHR, in coordination with NEA and SCA)




Attachments:

       1.   AlP   ASRP cable 11 State 52039
       2.   AlP   Decision Tree
       3.   AlP   Afghanistan Client letter - 2012 Cycle
       4.   AlP   memo for DCM




                                                 2
                            SENSITIVE BUT UNCLASSIFIED
                                                               Attachment 1

UNCLASSIFIED STATE 00052039
VZCZCXYZ0000
OO RUEHWEB
DE RUEHC #2039 1462126
ZNR UUUUU ZZH
O 262112Z MAY 11
FM SECSTATE WASHDC
TO ALL DIPLOMATIC AND CONSULAR POSTS COLLECTIVE IMMEDIATE
AMEMBASSY PORT AU PRINCE IMMEDIATE 0000
BT
UNCLAS STATE 052039

E.O. 13526: N/A
TAGS: APER, AMGT
SUBJECT: 2012 AFGHANISTAN SERVICE RECOGNITION PACKAGE (ASRP)

REF: (A) 10 STATE 64860 B) 09 STATE 062642

FOR MANAGEMENT OFFICERS: THIS TELEGRAM SHOULD BE BROUGHT TO
THE ATTENTION OF ALL FULL-TIME STATE DEPARTMENT EMPLOYEES AND
SHOULD BE READ IN CONJUNCTION WITH THE ALDAC ANNOUNCING THE
SPECIAL IRAQ/AFGHANISTAN/PAKISTAN ASSIGNMENT CYCLE FOR 2012.

1. SUMMARY: The provisions of the Afghanistan Service
Recognition Package (ASRP) as described below will apply
to employees who bid on and are assigned/detailed to
Afghanistan positions advertised in the 2012 assignment
cycle. It is designed to recognize exceptional factors
involved in service in Afghanistan and to assure fair
and just compensation for that service as well as to
provide for periodic relief from the stressful conditions of
life and work in Afghanistan. The ASRP has been reviewed and
revised as of the date of this cable.

Unless otherwise stated, State Department Foreign Service
(FS)and Civil Service (CS) employees on limited non-career
appointments (LNAs) to the Foreign Service and either assigned
or detailed to Afghanistan in extended temporary duty status
(TDY) from a post overseas or Washington are eligible for the
benefits described below, as applicable.
The benefits for personnel hired on temporary appointments
under 5 USC 3161 are summarized elsewhere (for information,
contact NEA-SCA/EX/FS Assignments at
AfghanAssignments@state.gov).

END SUMMARY.

2.   FAMILIES:

A. If an employee serving overseas volunteers for a
one-year detail to Afghanistan, whether at the end of a
current tour that will be extended to facilitate the
Afghanistan assignment or while still assigned to
another post, he/she may be permitted to have family
members who travel on the employee's orders remain at
the current post of assignment during said service
(available for one year only). The post/Department will
make every effort to ensure that family members who wish
to exercise this option may do so, including by seeking
agreement from the host country to permit family members
to remain at post with existing Diplomatic, Consular or
Administrative and Technical (A&T) status as appropriate.

B. If and only if the host mission is successful in
obtaining agreement with the host government that the family
members may remain at post with the same status they had
before (i.e., Diplomatic, Consular or Administrative &
Technical staff family members, as appropriate), may such
families remain at the current post of assignment. In such
cases, the family will not be eligible for Separate
Maintenance Allowance(SMA) but will retain housing, a reduced
COLA (i.e., minus the employee's portion), education
allowance, R&R travel where eligible under current post
entitlement, and EFM employment eligibility. While serving in
Afghanistan, an employee will be eligible for benefits as
described below. An employee considering this option should
contact post management at the current post, his/her CDA
Assignments Officer, and NEA-SCA/EX's Afghanistan Assignments
Office. Employees must have approval from both the bureau and
post from which they would be sent TDY.

C. Alternately, if an employee serving overseas volunteers
for a one-year assignment to Afghanistan, the
employee can elect to have family members who travel on
the employee's official orders return to the United
States (or travel to an approved foreign location on a
cost construct basis) and be eligible for Involuntary
Separate Maintenance Allowance (ISMA), provided the
family members meet the eligibility requirements for
SMA.

D.   Transitional Separate Maintenance Allowance (TSMA):

Two categories of Transitional SMA (TSMA), detailed in
Standardized Regulations (DSSR) Chapter 262.3, are available
to assist family members who are required to temporarily
occupy commercial quarters at their official Involuntary SMA
(ISMA) location in connection with unaccompanied assignments:
Category 1 - TSMA may be granted for a period of up to sixty
calendar days after the family members arrive at the
authorized ISMA location following their departure from an
accompanied foreign post, when the employee is transferring to
an unaccompanied post. (DSSR 262.3d)
Category 2 - TSMA may be granted for a period of up to ten
calendar days prior to the family members' departure from the
ISMA point to join the employee at his/her new foreign or
domestic post of assignment as long as the employee has not
yet departed the unaccompanied post on transfer orders. (DSSR
262.3e)

For both of these categories, there is language in the DSSR
disallowing TSMA payments for days for which the employee
receives per diem on behalf of the same family members.
E.   Family Member Employment:

If an employee proceeding on assignment to Embassy Kabul
has an Eligible Family Member (EFM) (not including
children) who is interested in accompanying the employee
to Afghanistan in an EFM capacity, the Department is
prepared to give every consideration to such a request.
The interested employee/EFM should contact Jamie L. Armstrong,
HRO Kabul or Melanie Richards, NEA-SCA/EX to
obtain information on the post's AEFM employment
program. EFMs are also encouraged to review information
on EFM positions for the 2012 Afghanistan Assignment
Cycle on the Department's Intranet at "Assignment...
Afghanistan - Finding a Job in Afghanistan", and register
with NEA-SCA/EX any interest in positions for which they
feel qualified.

As an EFM travels to post on the employee's travel orders, the
employee must be assigned to Afghanistan on permanent change
of station (PCS) orders in order for his/her family member to
accompany him/her to post; EFMs cannot travel on TDY orders.

3.   EERS/PERFORMANCE MEMOS:

The Embassy Human Resources Office will ensure that all
employees assigned or detailed to Afghanistan receive
formal EERs, as with any other overseas assignment.
Those who are on extended TDYs of 120 days or more will
receive formal EERs in accordance with HR/PE or HR/CSP
guidance, as applicable. Those on TDY assignments of
less than 120 days will receive TDY Memoranda or
Supplementary Comments on Performance to be included in
their Official Performance Files.

4.   PROMOTIONS:

Performance is and will remain key to promotion. As it
has with instructions to previous Selection Boards, the
Department will propose to include
language in the Procedural Precepts to the 2012 and 2013
Selection Boards regarding service in Afghanistan. The
Department will again propose the following language:
"In demonstration of a commitment to Service needs, creditable
performance under unusually difficult or dangerous
circumstances is particularly relevant. Boards are encouraged
to weigh positively creditable and exemplary performance at
hardship and danger posts
because of the unique and challenging work environment,
including service in areas of widespread warfare with
U.S. combat troops involvement and with a danger pay
designation such as Iraq, Afghanistan and Pakistan. Boards
should particularly credit performance in field positions
outside the capital cities in Iraq, Afghanistan and Pakistan
which the President and Secretary of State have determined to
be of the highest priority. These jobs are among the most
challenging and dangerous in the world, and are vital to the
U.S. national security."
5. EXTENSION OF TIME-IN-CLASS (TIC)/TIME-IN-SERVICE
(TIS):

A. Up to two years' extension of TIC/TIS will be
available only to Senior Foreign Service members in
class FE-OC and generalist or specialist members in
Class FS-01. Qualifying employees could serve up to two
years in a qualifying position in exchange for the
equivalent amount of time added to their TIC/TIS
calculations. Note that the Director General has
determined that, for FS-01s and FE-OCs, all positions in
Afghanistan are qualifying positions. Employees compete
for promotions and, if applicable, performance pay and
presidential awards. This constitutes Department policy
on TIC/TIS for these employees and will be incorporated in
forthcoming FAM revisions.

B. Several important provisions governing TIC/TIS
extensions:

(1) To benefit from this provision, members who are facing
final Selection Board reviews must actually be serving
in the qualifying position by September 1 of the year
the member's TIC expires.

(2) A TIC/TIS extension will be available only
prospectively. It will not be available retroactively
to those already serving in difficult-to-staff positions
or to those who have already entered their "grace year."
However, those ineligible because of these provisions,
but interested in working in Afghanistan after separation,
should contact the NEA-SCA/EX Afghanistan Assignments Office.
If you are interested in working in Afghanistan during your
grace year, please contact your CDO.

(3) Senior Foreign Service members at the FE-OC level who
receive a TIC extension under this provision and are
subsequently promoted to FE-MC will not be able to apply
the TIC extension to the combined OC/MC 14 year TIC.

(4) As is presently the case for other categories of
TIC/TIS extension, any FS-01 whose Senior Threshold
Window was open and whose TIC/TIS extension under this
proposal conferred entitlement to one or more additional
selection board reviews would have his or her Senior
Threshold Window extended.

6.   FAIR SHARE:

The service obligation in Afghanistan for Fair Share
credit is a minimum of ten months.

7.   FIVE/EIGHT RULE:

A one-year assignment or detail to Afghanistan meets
Foreign Service five/eight rule obligations. Only those
who complete at least 10 months of a one-year assignment
or detail to Afghanistan, or who are curtailed short of that
goal for service need will be eligible.

8.    ONWARD ASSIGNMENT:

The Department is offering a "linked assignment"
incentive to all bidders on non-DS Afghanistan positions
advertised in the 2012 cycle. This incentive does not apply
to Entry-Level personnel bidding on another entry-level
assignment. Details on the 2012 linked assignment program are
provided in septel.

9.    EXTENSION OF CURRENT ASSIGNMENT:

A. An employee who accepts a one-year detail during,
but not at the end of an overseas assignment, may seek
to return to the post of current assignment at the end
of the detail and have his/her tour extended by one
year, unless the position he/she left is a language
designated position where a successor has already been
assigned, i.e., where the position has already been
backfilled.

B. An employee so electing must notify CDA at the time
of bidding so that appropriate adjustments can be made.

10.    REST & RECUPERATION (R&R) TRAVEL:

A. Employees assigned or detailed to Afghanistan for at
least one year (including FS officers, specialists, and
Civil Service employees on FS Limited Non-career
Appointments (LNAs)) are eligible to choose between
either (a) two R&R trips and three Regional Rest Breaks
(RRB) or (b) three R&R trips and no RRBs during a 1-year
period. Employees detailed from another overseas post
may elect to return to their post of assignment for R&R.

B. Foreign Service and Civil Service employees on
temporary duty for six months or more but less than one
year will be eligible for one R&R trip back to the
United States or to the employee's post of assignment
after 90 days of service in Afghanistan.

C. U.S. Mission Kabul has a post policy on the maximum
duration of R&R and RRB trips. Please see the Kabul
intranet home page for further information on post policy.


11.    REGIONAL REST BREAKS (RRB):

Due to the extraordinary circumstances associated with
service in Afghanistan, the Department will fund
employee travel for RRBs as follows: (1) one RRB of
five working days during a six-month TDY; or (2) two
RRBs of five working days each during a nine-month or more
TDY. All employees on a one-year assignment or detail will be
eligible. Civil Service employees assigned to Afghanistan on
FS LNAs are eligible for RRBs according to the same length of
assignment requirements described above. As noted above,
those employees who elect to take three R&R trips during a
one-year assignment or detail will not be entitled to any
RRBs.

12.    ADMINISTRATIVE LEAVE:

All employees serving for six months or more in
Afghanistan may be authorized a limited amount of
administrative leave to be used during R&Rs and RRBs.
For those employees on one-year assignments or details,
administrative leave may be authorized not to exceed a
total of 20 work days per year (1 year = any 365
consecutive days) and not to exceed 5 workdays per RRB or
10 workdays per R&R trip. For shorter-term assignments,
administrative leave may be authorized not to exceed a
total of 10 workdays for six-month TDYs, or a total of
15 workdays for nine-month TDYs (NTE 5 workdays per RRB
or 10 workdays per R&R trip). Note that administrative
leave is discretionary, must be approved by Mission
Afghanistan, and is not an employee entitlement.

13.    TRAVEL TO/FROM POST:

Please review the January 25, 2008 Department Notice on
OMB-Mandated Changes on Business Class Travel Policy and
Department Notice dated February 28, 2008, FAQs About
Business Class Travel Policy Changes in connection with
assignment or long term TDY/detail to Afghanistan.
(http://mmsweb.a.state.gov/asp/notices/dn_temp.asp?Notic
e_Id=8941) Business Class Air Travel is no longer
authorized for personnel assigned or on a long-term
TDY/detail (six months or more) to Afghanistan.

14.    COMPENSATION:

A.    Danger Pay:

Danger Pay for Afghanistan is 35 percent of basic pay
(base salary plus comparability pay). Danger Pay begins
on the day of arrival in Afghanistan and ceases on the
day of departure (permanent or temporary departure from
post). The employee must be in country for a minimum of
four hours to receive Danger Pay.

B.    Post (Hardship) Differential

The Post Differential for Afghanistan is 35 percent of
basic pay (base salary pay plus comparability pay).
        1) For employees assigned to Afghanistan, post
differential starts on the first day they arrive in
Afghanistan.
        2) For employees on detail or TDY to Afghanistan,
post differential is retroactive to the beginning of the
day of arrival once the employee has spent 42 consecutive
days at post.
        3) For further details on Post Hardship
Differential see Department of State Standardized Regulations
(DSSR) Section 500.

C. Special Differential:

Commissioned Foreign Service (FS) officers in classes
FS-04 to FS-01, assigned to Afghanistan or serving
extended details of 180 days or more, receive a 20 percent
Special Differential to compensate for substantial amounts of
extra work performed. (Special differential is calculated
from an employee's basic pay, i.e., base salary plus
comparability pay.) These employees are not eligible to
receive premium compensation (overtime pay, compensatory time
off, Sunday Pay, Holiday Pay, and Night Differential) under
Title 5. Special Differential will be suspended or forfeited
when the eligible employee is absent: in a non-duty status for
more than 21 consecutive calendar days, on temporary duty to
another position that is not covered for more than 21
consecutive calendar days, or the day after an employee's
permanent departure from post.

D. Premium Pay

Foreign Service Specialists, non-commissioned FS
officers, employees on Limited Non-Career Appointments
(LNAs) to the Foreign Service, and Civil Service
employees on duty in Afghanistan are entitled to Title 5
premium compensation, and thus, may earn overtime compensation
and/or compensatory time off up to the annual premium pay cap
of 230,700 USD (subject to the caveats noted in paragraph F
below).

NOTE: Employees who receive Law Enforcement Availability Pay
(LEAP) may not also earn regular compensatory time off.
Regular comp time is only earned for irregular and unscheduled
overtime hours. For those receiving LEAP, all irregular and
unscheduled overtime hours must be credited towards their LEAP
hours. U.S. Mission Afghanistan has a premium pay policy and
guidance on how overtime work must be authorized and reported.

E. Language Incentive Pay (LIP):

Members of the Foreign Service who are assigned to or on
extended detail or TDY for more than 30 days to
Afghanistan and possess Dari or Pushto language skills
at certain levels are eligible to receive LIP or
Asymmetric Language Incentive Pay (ASLIP) in accordance
with the procedures outlined in 3 FAM 3910. Employees
sent TDY from a current post of assignment where they
are receiving LIP will not be eligible for that LIP
while TDY in Afghanistan.

F.   Pay Caps and Rollover Provisions:

The Department's ability to offer certain incentives depends
on continued extension of existing legislative authorization
for those incentives. Pay regulations are subject to
Congressional action and are subject to change. In early
2012, new pay regulations affecting Afghanistan will be
published.


1).   PREMIUM PAY CAPS:

For employees eligible for Title 5 premium pay (e.g., Civil
Service employees, untenured FS generalists, FS specialists,
and certain employees on LNAs) who are assigned or TDY'd to an
Afghanistan duty station, and who spend at least 42
consecutive days in Afghanistan, both the biweekly and annual
premium pay caps on the total of basic and premium pay
earnings have been waived up to $230,700 for 2011.

2).   ANNUAL AGGREGATE PAY CAP:

Employees granted a waiver of the 2011 premium pay caps
(5 U.S.C. 5307) up to 230,700 USD (see paragraph 15F(1)
above) are not subject to the annual aggregate pay cap
for the same calendar year as the premium pay cap
waiver. Employees who are not eligible to receive
premium pay (e.g., tenured Foreign Service officers and
senior employees) are also ineligible for the premium
pay cap waiver and, therefore, remain subject to the
annual aggregate pay cap. The 2011 aggregate pay cap
for GS-15/FS-01 and below is $199,700 and includes base
pay, allowances, and differentials. The senior
aggregate limitation on pay for 2011 is $230,700.

3).     ROLLOVER PROVISION:

Employees whose pay is capped by the annual aggregate
pay cap of EX-I or 199,700 USD will have their post
differential and danger pay that exceeds the annual
aggregate pay cap rolled over to the following year. For
those employees whose pay is capped by the annual
aggregate pay cap, payroll will project at the beginning
of 2012 the post differential and danger pay earnings
for each employee to the end of the pay year. If
payroll projects the employee's pay in the current
assignment will NOT exceed the pay cap, all or part of
the "rollover" money will be paid. If payroll projects
that the employee's pay will meet or exceed the pay cap
in 2012, the "rollover" money will be held back until
the employee's pay is no longer expected to exceed the
annual aggregate pay cap. (See 11 State 11822.)

F. Student Loan Repayment Program:

Employees serving in Afghanistan who have qualifying
outstanding student loans are eligible for the Student
Loan Repayment Program (SLRP). (For details see 11 State
18290.)
G. Special Differential for Second Year:

The Department will continue the program to encourage
employees to seek two-year tours of duty in Afghanistan.
Under this program, an employee (commissioned FO-04 to
FO-01 Generalists only) who extends his/her tour of duty
in Afghanistan by twelve months will be eligible to
receive an additional 15 percent special differential
during the second year of service in Afghanistan. This
special differential is to compensate for additional
work performed in the second year in substantial excess
of normal requirements. Employees who are assigned to
Afghanistan TDY from an overseas post may request an
extension but will not be permitted to remain TDY from
the overseas post during the second year -- they will
either have to be assigned to Afghanistan or TDY from
Washington. Similarly, employees who break a linked
assignment to extend for a second year will not be
eligible for another linked assignment but will be eligible to
accept an early handshake. The Department
approved a non-repayment policy for this second-year
special differential, i.e., employees who curtail their
tour of duty during the second year will not be required
to repay any special differential already received for
their service beyond one year.

15.   ASSIGNMENT STATUS & CONTINUITY TOURS

A. Assignment Status: At the present time, employees who
accept Afghanistan positions advertised in the 2012
assignments cycle may be either assigned to post or TDY'd to
post from Washington or from their current overseas post of
assignment.

This Afghanistan Service Recognition Package will apply to
those employees assigned to continuity tours. Only those
employees who serve in Afghanistan during the second year of
their contintuity tour (May 2013-May 2014) will be eligible to
seek a linked assignment. These tours are not available to
entry-level personnel.


16.   RESTORATION OF ANNUAL LEAVE:

The Department has designated employees serving in
Afghanistan as performing "national emergency" work.
Therefore, any leave forfeited by an employee because he
or she is currently serving, or has served, in
Afghanistan for a period of at least 30 calendar days
during the leave year will be restored to the employee
at the beginning of the next leave year (08 State 13189).
Employees should apply for leave restoration through the
Embassy Kabul Human Resources Office (HRO) or through their
home post timekeeper.

17.   HOME LEAVE/TRANSITION LEAVE:
A. All Foreign Service employees who arrived at post
on/after May 1, 2008, and who complete 12 months of
continuous service abroad in Afghanistan on assignment
or TDY will accrue and are required to take home leave
following the assignment.

B. Similarly, all Civil Service employees on LNAs who
complete 12 months of continuous service in Afghanistan
followed by another overseas assignment must also take
home leave. Civil Service employees on an LNA
appointment who return to an assignment in the United
States are currently required to take 15 days of
transition leave to resettle back into the United
States.

C. While the intent of this requirement is to promote
employees' well-being, the Department realizes that this
may be a burden on some employees. Accordingly, the
Director General may consider an employee's request for
delayed or deferred home leave, or a home leave waiver
if such home leave would impose undue hardship on the
employee. Requests should be sent to the appropriate HR
Assignments Officer for the gaining bureau or post.

D. For more details and guidance on this subject,
employees should refer to 08 State 012506 and 08 State
103506.

E. Employees and their family members who are eligible
for home leave based on their prior post abroad but are
unable to take it because the needs of the Department
require the employee to report to duty in Afghanistan
directly from the prior post may delay home leave until
after the employee completes service in Afghanistan,
unless this would cause the employee's period of
continuous service abroad to exceed 42 months. In such
circumstances, the Department will pay travel expenses
for eligible family members to take home leave with the
employee, regardless of whether the family members are
receiving SMA and are residing abroad or in the U.S.
Family members will not receive SMA on any days that
they receive per diem for home leave travel.

18. UAB, HHE, AND CONSUMABLE SHIPMENTS:

The following shipments are authorized for all personnel
serving a one year tour in Kabul, the RCs, and the
Consulates:
-- UAB consisting of 250 pounds gross weight
-- 2000 pounds of HHE by air
-- 1000 pounds of consumables.

Personnel assigned to field positions are authorized 3
suitcases at 50lbs each for inbound travel. Outbound
allowances remain 2000 net lbs HHE and 250 gross lbs UAB
for all locations with the added option of a third bag
in lieu of UAB for field positions. Information on what
to bring to post can be found on the Orientation and In-
Processing Center site
http://nea.p.state.sbu/sites/ex/OIP/Afghanistan/Topics/d
efault.aspx

19. SUNSET REVIEW: The Department's ability to offer certain
incentives depends on continued extension of existing
legislative authorization for those incentives, and is subject
to the availability of appropriated funds. The provisions of
the Afghanistan Service Recognition Package (ASRP) may change
over time to reflect changing conditions at post, just as post
allowances and differentials are subject to change. The ASRP
is scheduled for quarterly comprehensive reviews as necessary.

20. MINIMIZE CONSIDERED.
CLINTON
BT
#2039




NNNN
UNCLASSIFIED STATE 00052039
                 Attachment 2




 A guide to help you
decide where to live
      during an
Unaccompanied Tour
                                   A Decision Tree 

            To Help You Decide Where to Live During an Unaccompanied Tour

The following chart outlines the allowances and other benefits/consequences of choosing one location over an
other for your family to live during your unaccompanied tour. After studying these factors, you may still
wonder whether it would be better to be in the US (Location A) or abroad (Location B). To help you decide,
we have developed the following list of questions. Assign “weights” to each of the following questions,
taking into consideration the degree of importance you place on each (0 = N/A; 1 = little support to 5 = great
support). For instance, you might have distant family in location A (=2) but close friends and neighbors in
location B (=3). Once you have decided between domestic or foreign location, you can repeat the process to
choose between two stateside locations (i.e. a DC residence or home leave address or somewhere in the
country).

            Factor                                                                         Score
Where is my support network?                                               Location A                Location B
  Personal: Family, Friends, Neighbors                                     _________                  _________
  Physical health providers                                                _________                  _________
  Mental health providers                                                  _________                  _________
  Spiritual mentors                                                        _________                  _________
  Other                                                                    _________                  _________
Where is my comfort zone?:
   Where am I competent, confident, and comfortable with the culture? _________                       _________
   Where am I fluent in the language?                                 _________                       _________
Where would I have the best job or career opportunities?                    _________                 _________
Where would I have the best educational opportunities?                      _________                 _________
Where could I pursue my hobbies, avocations?                                _________                 _________

How difficult would it be to move?

Will this assignment require time for training?                             _________                 _________

For Parents:
Where would our children have the best support network
    (friends, extended family)?                                             _________                 _________
Where would our children feel most comfortable?                             _________                 _________
Where do they have access to the most activities that interest them?        _________                 _________
Where would our children have the best educational options
    and support?                                                            _________                 _________
Do our children have health issues to consider?                             _________                 _________
Where can our children get medical, or mental health
support (as needed)?                                                        _________                 _________



                                 These acronyms are used on the following pages:
COM     Chief of Mission                                   PRT     Provincial Reconstruction Team
DOS     Department of State                                SMA     Separate Maintenance Allowance (18% lower than ISMA)
EFM     Eligible Family Member                             TDY     Temporary Duty
HHE     Household Effects                                  TSMA    Transitional SMA
ISMA    Involuntary Separate Maintenance Allowance         UAB     Unaccompanied Air Baggage
PCS     Permanent Change of Station                        UT      Unaccompanied Tour
POV     Privately Owned Vehicle                            P&I     Privileges and Immunities
       The Decision Tree below shows the various support services, allowances, and other benefits/
          consequences of choosing different locations for TDY or PCS Unaccompanied Tours.
                    Place your weighted scores on the appropriate side of the “scale:”


                 United States (A =_______)                                Approved Foreign Location (B = ______)
                                                                       .

              DC Area          or          Other: ________                         PCS               or        12 Month TDY


 Easier access to DoS for           Must rely on internet and       No support from                     Family under COM
   FLO, FSI, MED and other            other long distance              Mission, i.e. must                    continues with house,
   support services.                  methods to contact DoS.          arrange visas, work                   job, school, Embassy
                                                                       permits, housing etc.                 access, pouch/APO,
 Family travel paid to DC          		Family travel paid to           on own. No APO/                       Health Unit, and P&Is
                                      ISMA location.                   pouch, Health Unit,                   as before.
                                                                       Commissary, GSO, or
                                                                       P & I‟s.                            No ISMA, but if post has
 Note: Information is for a PCS assignment. See box below for                                                COLA it continues,
 TDY notes.                                                           Family may be eligible                minus the employee‟s
                                                                       for ISMA and at-post                  portion. If status of
 If coming from a foreign post after a sufficient amount of time,      Education Allowance for               family has not been
 EFMs may travel to HL address first, if it is different.              location. Must designate              changed previously,
 TSMA can be paid for up to 60 days of commercial lodging
                                                                       a “virtual” ISMA                      may opt to leave post
 while awaiting HHE at ISMA point.                                     location in CONUS.                    (e.g., after school ends)
                                                                       EFMs, HHE, UAB and                    and go on voluntary
 HHE & UAB, and possibly POV transported. HHE may be put               possibly POV sent on                  SMA.
 into or taken from storage. Overall weight must be within             cost constructed basis
 allowable limit.                                                      from last post to „virtual‟         Employee's R&Rs may
                                                                       location. Travel to next              be to US or post.
 Children are assumed to be in public school but could have            post also cost
 away-from-post education allowance for the remainder of a             constructed.                        Not eligible for Travel of
 school year if they started the school year in a foreign boarding                                           Children of Separated
 school at previous post. For single parents who are entrusting       Employee‟s travel on                  Families (except for
 their child(ren) to a non-parent guardian in the US, the away-        R&R‟s cost constructed                children who do not
 from-post education allowance may be used to cover enroll-            to EFMs‟ location based               regularly reside with the
 ment fees at public or private day school, and some living            on designated R&R for                 employee and do not
 expenses can be reimbursed to guardian if there is no parent          his/her post (e.g. London             receive an education
 (legal or step) also in the U.S.                                      for Iraq).                            allowance or educational
                                                                                                             travel).
 Family, HHE, UAB, POV etc. will be moved to next assignment.
                                                                      May use Travel of
 Family may stay in commercial quarters for up to ten (10) days
                                                                       Children of Separated
 on TSMA after pack out, if they will be traveling to an onward
                                                                       Families for visiting in a           Note: The 12-month TDY
 foreign assignment from the ISMA location.
                                                                       third location (cost con-            option is limited to certain
                                                                       structed from „virtual‟              posts in Iraq, Afghanistan,
       These allowances are current but are subject                    ISMA address). Does                  and Pakistan assignments,
                       to change.                                                                           and must be negotiated on a
                                                                       not apply for college or
                                                                       boarding school students             case-by-case basis. Please
                                                                       (their travel would have             contact the post and the bu-
                                                                       to be within their                   reau.
          Please Note: Separate Maintenance
          Allowance (SMA, ISMA, and TSMA) is                           Education or
          tax free.                                                    Educational Travel
                                                                       Allowance).
________________________________________                                   _________               ________

Total                                                                      _________               ________



                          Summary of Allowances and Benefits

               For U.S Government Civilians Under the Department of State 

                           Standardized Regulations (DSSR)

Reference: http://aoprals.a.state.gov (as of March 16, 2008)
The Department of State Standardized Regulations (DSSR) governs allowances and benefits available to U.S.
Government civilians assigned to foreign areas. Note that because individual agencies may draft their own
implementing regulations, which can be more restrictive than the DSSR, you may not be eligible for all of the
allowances listed below. Employees should check both the DSSR and their agency‟s implementing

    The Office of Allowances internet website: http://aoprals.state.gov/
    The FAM and FAH can be found on the internet at: http://www.state.gov/m/a/dir/regs/
    The Office of Allowances intranet website: http://aoprals.a.state.gov
    The FAM and the FAH can be found on the intranet at: http://arpsdir.a.state.gov

regulations for guidance on a specific allowance. Employees of the four Foreign Affairs Agencies (State,
Foreign Commercial Service, Foreign Agricultural Service, and USAID) should refer to volumes 3 and 14 of
the Foreign Affairs Manual (FAM) and volume 3 of the Foreign Affairs Handbook (FAH) for more guidance.

Separate Maintenance Allowance (SMA)
SMA is designed to help an employee who is compelled by reasons of dangerous, notably unhealthful or
excessively adverse living conditions at the foreign post of assignment, or for convenience of the Government,
or because of family considerations, to defray the additional expense of maintaining family members at
another location.
There are three types of SMA: Involuntary, Voluntary and Transitional. Involuntary SMA is paid when
family members are prohibited from residing at the foreign post. Children are eligible for Involuntary SMA
until they reach 21 years of age. Voluntary SMA is paid when family members may go to a foreign post but
opt not to for personal reasons. Children lose eligibility for voluntary SMA when they turn 18, unless they are
still in secondary school (e.g., high school). Voluntary and involuntary SMA are paid at the following annual
rates:

 SMA Rate Table

 Type of SMA             1 Child Only      2 or More 1 Adult 1 Adult and           1 Adult and 1 Adult and
                                            Children   Only 1 Additional                2 or 3   4 or More
                                                                 Family             Additional Additional
                                                                Member                 Family       Family
                                                                                     Members     Members

 Voluntary                     $5,300          $8,800 $10,100          $13,600        $15,400        $18,000

 Involuntary                   $6,800        $11,300 $12,900           $17,400       $19,7000        $23,000

A "child" is a family member who is unmarried and under 21 years of age as defined in DSSR 040m(2) and
(4). An "adult" for the purposes of the above SMA table includes the employee's spouse and any of the
relatives defined in DSSR 040m and 261.1b as family members who are 21 years of age or older.




Transitional SMA may be paid for reasons following the termination of an evacuation (a) through (c) or in
connection with commencement/termination of an unaccompanied tour of duty (d) and (e):
(a) following termination of an evacuation and conversion of a post to an unaccompanied status;
(b) following termination of an evacuation and reversion of post to accompanied status, to allow a child in the
final semester of the current school year to complete that school year;
(c) following termination of an evacuation and reversion of post to accompanied status but an employee and/or
family members cannot return to post for reason(s) beyond the employee‟s control;
(d) when family members must depart from an accompanied foreign post because the employee's next foreign
post is unaccompanied; or
(e) when family members on ISMA prepare to depart the ISMA point for the employee's next foreign post
(accompanied).
Transitional SMA is paid at the following continental US (CONUS) daily rates (Note that these rates are
based on family units and not on individuals):


 Family Size                                 Day 1-30        Day 31-60       Day 61-90

 1-2 Eligible family members:                100%of stan- 75%                50%CONUS
                                             dard CONUS CONUS

 3 or more eligible family members:          100%            75%             50%CONUS
                                             CONUS           CONUS           +$20
                                             +$20            +$20


Please see DSSR 260 for details on each type of SMA. Note carefully the limits on some types of SMA,
particularly the 90-day separation requirement, the one-change-of-election provision and separation/divorce
and legal-custody-of-child provisions.

Education Allowance
The purpose of the education allowance is to assist an employee in defraying those costs necessary to obtain
educational services (grades K-12) that would normally be free of charge in the U.S. The allowance is based
on the least expensive “adequate” school at post. A school is deemed adequate if, upon completion of a grade
at the school, a child of normal ability could enter the next higher grade at a public school in the United States.
When a school is adequate, the rates for attending a school “at post” and attending a school “away from post”
will be the same. The “away-from-post” education allowance can be used to pay for tuition, room and
board, unaccompanied air baggage and periodic transportation between the post and the designated boarding
school, not to exceed the away from post allowance.
The regulations also provide a “special-needs” allowance in lieu of the “at-post” or “away-from-post”
education allowances, as well as additional funds for supplementary instruction. Children who are
home-schooled are also eligible for some education allowance funding. DOD employees come under separate
authority for education benefits. Note: the transportation portion of the “away-from-post” rate should not be
confused with the separate benefit of educational travel described below. See Section 270 of the DSSR for
more information on the education allowance.



Educational Travel:
This allowance permits one round trip annually between a school attended and the foreign post of
assignment. This benefit is primarily intended to reunite a full-time post-secondary student
attending college (including the post-baccalaureate level), technical or vocational school with the
employee/parent serving the U.S. government in the foreign area. However, educational travel may be
paid for a child in secondary school (grades 9 through 12) instead of the education allowance described
above.
Educational travel cannot be paid at the same time as the education allowance and should not be confused
with the transportation component of the “away-from-post” education allowance. Educational travel can
commence from either the school or the post, but only one round trip between school and post is allowed
annually. Based on a change in law, the DSSR changed effective July 22, 2007 eliminating the restriction
that the school attended full-time had to be in the United States. The educational travel benefit ceases
once the student dependent reaches the age of 23, except for in limited cases when the child's education
is delayed by military service (see DSSR 284 for further information).




                            For more information or questions about
                             Unaccompanied Tours please contact:
                                Unaccompanied Tours Support Office
                                          Family Liaison Office - DGHR/FLO
                                                 U.S. Department of State
                                         Harry S. Truman Building, Room 1239
                                                 Washington, DC 20520
                                       Telephone 202.647.1076; 1-800-440-0397
                                                    FAX 202.647.1670
                                    Internet: www.state.gov/m/dghr/flo/c14521.htm
                Intranet: http://intranet.hr.state.sbu/Benefits_Compensation/Family_Services/Pages/
               UnaccompaniedTours.aspx

              Email: FLOaskUT@state.gov
                                         Information for AIP posts
http://nea.p.state.sbu/sites/ex/OIP/default.aspx intranet site
                                              EFM employment
Afghanistan:
http://nea.p.state.sbu/sites/ex/Shared%20Documents/Kabul_EFM_Instructions.pdf intranet site


Iraq:
http://nea.p.state.sbu/sites/ex/Shared%20Documents/Baghdad_EFM_Instructions.pdf intranet site


Pakistan:

http://nea.p.state.sbu/sites/ex/Shared%20Documents/Pakistan_EFM_Instructions.pdf intranet site




                           Questions and application for ISMA (on the intranet)
General questions: Wendy Brayer in Room 4253 Tel 202-647-2824 at Main State
                     or your Human Resources Officer at post.
Iraq: Terri Diggs, DiggsTP@state.gov or (202) 647-5966.
Pakistan: Jennie Huei Wen H Chow         ChowHH@state.gov or (202) 647-4629
Africa: Yuien A Stites (Alison)   StitesYA@state.gov or (202) 647-2776
Kosovo: William a Womack WomackWA@state.gov or (202)647-7794
Monterrey: Alisa Coleman Brown coleman-browna@state.gov or 202 736 7015

                                                ISMA Directions
   Complete SF 1190, b) Certification of Circumstances, c) Confirmation of Understanding
   of “One Change” rule documents, d) Copy of your OF-126 Dependent Report, and e) Copy of your
   Travel Authorization—all forms & info found at:

        http://nea.p.state.sbu/sites/ex/PMO/Hot%20Topics/Forms/

        AllItems.aspx?RootFolder=%2fsites%2fex%2fPMO%2fHot%20Topics

        %2fSMA%20Application&FolderCTID=&View=

        %7bF657FB95%2dB433%2d4EA3%2d8C9F%2d09419B56FF13%7d

   The Bureau, Post and Charleston will approve and coordinate submission.
                                                                                       Attachment 3
Dear Client,

Please read the below message carefully as it presents important details on the
information that we’ll need from you in order to finalize your 2012 Afghanistan
assignment. The below also reminds you on how to proceed if you are seeking a linked
assignment.

Finalizing Your Afghanistan Assignment
As you may know, per the 2012 Afghanistan Service Recognition Package, employees
who bid on Afghanistan assignments during the 2012 assignments cycle may be
assigned to Afghanistan (PCS), assigned to Washington and TDY to Afghanistan, or
TDY from their current post. Please review the following three assignment
possibilities carefully and let Erin Carroll (SCA) and Meri-Kay Katterson (HR/CDA/AD)
know which option you would prefer. Please remember, however, that while the
Department will strive to accommodate your preferences, it will remain up to the
Department to choose whether to send you PCS or TDY:

   1.	 Assignment to the position in Afghanistan (PCS): Employees who are assigned to

       Afghanistan and travel on PCS (also known as Post Assignment Travel or PAT)

       orders are eligible for Involuntary & Separate Maintenance Allowance (ISMA)

       for families and receive per diem while in Washington for training (if coming

       from an overseas assignment). Orders will be processed by HR/EX.


       If an EFM travels to post on the employee's travel orders, the employee must be

       assigned on permanent change of station (PCS) orders in order for his/her family

       member to accompany him/her to post. EFMs cannot travel on TDY orders.


   2.	 Assignment to Washington (NEA/SA/IAD – Afghanistan Staff) and TDY to

       Afghanistan: At the present time, employees who accept Iraq, Afghanistan, 

       Pakistan positions advertised in the 2012 assignments cycle may TDY to post 

       from Washington.


       Employees who TDY to Afghanistan from Washington are not eligible for ISMA

       or SMA; nor are they eligible for per diem while in Washington for training. 

       However, employees who TDY from Washington are eligible for Washington 

       locality pay (24.22%), and for the Home Service Transfer Allowance (HSTA) if 

       transferring from an overseas assignment. Employees who are assigned to 

       Washington and TDY to Afghanistan will not be eligible for per diem during any

       training associated with their onward assignment from Afghanistan.


       Employees who are currently overseas and who will TDY to Afghanistan

       from Washington will receive two sets of orders. The first set of orders is

       prepared by HR/EX and funds PCS orders transferring employees out of post and 

       assigning them to Washington. The second set of orders is prepared by the Office 

       of Orientation and In-Processing (OIP) and will allow long-term storage, training,

       and travel. Please note: The Foreign Service Act has no provision to cover

       storage of HHE for employees who are assigned domestically using HR/EX

       funds. 

   3.	 TDY from your current post: This option is only available to employees with
       EFM’s on their orders. If approved, these employees will be able to leave their
       families at post, retaining diplomatic status while they TDY to Afghanistan.
       Employees who TDY to Afghanistan from their current post must have “losing”
       post written approval as well as agreement by the host country to extend
       diplomatic status to remaining family members. OIP will issue employees’
       training and travel orders.

Employees assigned to Afghanistan during the 2012 cycle with an ETA of 2013 via one
year of language training may be assigned via options 1 or 2 above: assignment to
Afghanistan (PCS) or assignment to Washington and TDY to Afghanistan. Please be
advised that if an employee is coming from overseas and selects the Washington
assignment with the TDY to Afghanistan, he/she will not be eligible for per diem during
language training. As mentioned above, employees who are assigned to Washington and
TDY to Afghanistan will also not be eligible to collect per diem in training for their
follow-on assignment.

DS agents should contact their CDO and/or DS assignments officer for more detailed
information on how the above assignment mechanisms might apply to them. Entry-Level
Generalists and Specialists being assigned to Afghanistan on their first tour will be
assigned to Afghanistan (PCS) and are not eligible for either TDY option.

For more information, please refer to the “Assignment….Afghanistan” website which is
accessible under “Employee Resources” on the State Department’s Home Intranet page.
It is important to look at this site on a frequent basis as any changes to assignments in
Afghanistan will be posted.

Please notify Erin Carroll (SCA) and Meri-Kay Katterson which option you would prefer
as soon as possible. Once you have notified us of your preferred option, the appropriate
HR/CDA/AD Assignments Officer will contact you to discuss the next steps. Employees
who prefer the TDY from post option must still notify the above people even though all
the final details at post may not have been worked out.

The Orientation and In-Processing Center (OIP) is the central Post in-processing point for
USG employees of all agencies deploying to Afghanistan. The level of support is directly
related to the employee’s assignment status (TDY or PCS). OIP will send each traveler a
Deployment Guide which they are urged to read in order to understand deployment
actions and the assistance provided by the OIP Center. The deployment guide and other
useful information can also be found at: Afghanistan Orientation and In-processing
Center (OIP)

REMEMBER! It is your responsibility to state your preference depending on your
personal situation. Once you have chosen and begun travel, your PCS or TDY status
cannot be changed.

Important Reminder for those Eligible for Linked Assignments:

LINKED ASSIGNMENTS: If you submitted your 2012 Afghanistan bid by July 29 and
are seeking a linked assignment for 2013, send an e-mail to your CDO, and NEA/EX, so
that they are able to track your interest and progress. If you haven’t done so already,
please also send an e-mail to AfghanistanLinkedAssignments@state.gov to formally
register your interest. This e-mail should include the following information: (1) Your
name, (2) your grade, (3) your cone, (4) the Afghanistan position(s) on which you bid or
accepted a handshake, (5) the date that you submitted your Afghanistan bids, and (6) the
bureaus, posts and/or positions to which you hope to link (if you have focused your
search). Once a position is posted on a regular cycle, the position will no longer be
available for a linked assignment.

As noted in the ALDAC announcing linked assignments for the 2012 cycle, the number
of links will be capped at 170. Links will be finalized on a first-come, first-served basis.

Thank you very much and congratulations once again on your assignment to Afghanistan.

Meri-Kay
                                                                                             Attachment 4

                                                     United States Department of State
                                                      Bureau of Human Resources
                                                      Washington, D.C. 20520



                                                       Date:

UNCLASSIFIED
DECISION MEMORANDUM

TO:                   DCM (name)

FROM:                 HR/CDA/AD - Meri-Kay Katterson

SUBJECT:            Request for (employee’s name) family to reside at post while TDY to (AIP
country where employee will be) from (date) to (date)
___________________________________________________________________________________

The above named employee has accepted a handshake for a position in (AIP country). Before HR/CDA
can take this employee to Assignment Panel we must have written approval from his/her current post
that the host government approves the following:

•	 Will host government give permission for, or have no objection to, the family member(s) remaining
   at post without the sponsor? Yes _____ No ______

•	 Is the family member(s) a U.S. citizen(s) with a diplomatic passport(s)? Yes _____ No ______

•	 If not a U.S. citizen without diplomatic passport, will the host government grant derivative
   diplomatic status without raising any questions as they do in some other countries?
   Yes _____ No ______

•	 Will host government allow, or not object to, the position being double-encumbered for a year, i.e.,
   the employee retains diplomatic status in country during the year away so the family member may
   maintain derivative status? Yes _____ No ______

•	 Can post support the logistical requirements (housing, ICASS service provision, etc.) of the family
   remaining at post during this time? Yes _____ No ______

Decision

Based on the answers to the above questions, please approve or disapprove the safe-havening of
(employee’s name) family in (POST name) during the one-year TDY to (AIP country where employee
will be) from (date) to (date).

Approve ____________ Disapprove ____________ Date _________________

Signature and Title of Approver ______________________________________
